HHS/OIG-Audit--"Review of Fee-for-Service Payments for Selected Medicare Beneficiaries Enrolled in Managed Care Risk Plans, (A-07-97-01247)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Fee-For-Service Payments for Selected Medicare Beneficiaries
Enrolled in Managed Care Risk Plans," (A-07-97-01247)
October 27, 1999
Complete Text of Report is available in PDF format
(976 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Medicare fiscal intermediaries improperly
paid Part A providers under Medicare's fee-for-service system for services provided
to beneficiaries enrolled in health maintenance organizations (HMO) in Colorado,
Florida, Missouri, and Pennsylvania $2.3 million for Calendar Years 1995 through
1997. This may be a national problem since the Health Care Financing Administration
(HCFA) has not implemented procedures to detect and prevent such duplicate payments.
Moreover, the amount of improper duplicate payments may be significant considering
the remaining States and the Medicare Part B program. We are recommending that
HCFA strengthen procedures to prevent and detect duplicate payments where the
HMO has payment responsibility, and identify and recoup all duplicate fee-for-service
payments made under Medicare Parts A and B for HMO enrollees, including the
$2.3 million identified in this report.